U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



      Food and Nutrition Service
 Child and Adult Care Food Program
        Oversight of Sponsor




                Report No.
                27010-8-KC
                November 2001
                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                               OFFICE OF INSPECTOR GENERAL
                                                              Audit
                                                       Great Plains Region
                                                   5799 Broadmoor, Suite 600
                                                     Mission, Kansas 66202


DATE:                December 28, 2001

REPLY TO
ATTN OF:             27010-8-KC

SUBJECT:             Child and Adult Care Food Program, Oversight of Sponsor

TO:                  William E. Ludwig
                     Regional Administrator
                     Food and Nutrition Service, USDA
                     1244 Speer Boulevard, Suite 903
                     Denver, CO 80204


This report presents conditions noted during our audit1 of the largest sponsor of the
Child and Adult Care Food Program (CACFP) in Colorado. While reviewing Federal
reimbursements made to the sponsor (Wildwood, Inc.), we found that the State Agency
(SA) had neither recovered approximately $27,000 of excess reimbursements received by
a center sponsored by Wildwood, nor obtained the required waiver. In addition, Wildwood
did not meet requirements of Office of Management and Budget (OMB) Circular A-133
because it did not timely provide independent audits and the audits did not include all
Federal funds.

BACKGROUND

Wildwood, located in Littleton, Colorado, sponsored day care facilities that provided meals
to children enrolled in the U.S. Department of Agriculture’s CACFP. The CACFP was
established in 1975 by Public Law 94-105 and is intended to ensure that children who
attend day care facilities receive nutritious meals by reimbursing participating
nonresidential care facilities, including day care homes (homes) and day care centers
(centers), for meals served to children in their care. The CACFP requires that meals
claimed for reimbursement meet certain nutritional standards.

The CACFP is administered at the Federal level by the Food and Nutrition Service (FNS)
and in most States by a SA. In Colorado, the SA is the Colorado Department of Public
Health and Environment. A SA administers the program through sponsoring organizations
(sponsors), like Wildwood.    A sponsor acts as a liaison between the SA and



1
    Audit Report No. 27010-6-KC, Child and Adult Care Food Program, Wildwood, Inc., Phase II, dated November 21, 2001.
William E. Ludwig                                                                    2


participating centers and homes and is ultimately responsible for program operations at
those facilities. This includes reviewing and monitoring the food service operations of
centers they sponsor. Monitors must assess compliance with CACFP meal patterns,
recordkeeping, and other requirements at least three times per year. Wildwood received
reimbursements of over $2,784,000 for the centers it sponsored for the 3 fiscal years (FY)
ending September 30, 1999. For FY 1999, Wildwood received approximately 49 percent of
the SA’s total CACFP funds for food and administrative costs.

A SA is liable to FNS for failure to collect an overpayment unless FNS determines that the
SA has conformed with regulations in issuing the payment and has made reasonable effort
to recover the improper payment.2 Sponsors receiving $300,000 per year or more are
required to have an annual audit performed in accordance with the OMB Circular No.
A-133.

OBJECTIVES

Our objectives were to determine if the excess reimbursements received by a center
sponsored by Wildwood had been properly serviced and to determine if the SA had
ensured that the sponsor obtained independent audits meeting requirements.

SCOPE

As part of our overall review of Wildwood’s operations, we traced the flow of disbursements
from the FNS Mountain Plains Regional Office to the SA and to Wildwood for FYs 1997,
1998, and 1999. However, transactions in other periods were reviewed as deemed
necessary to achieve our objectives. As part of the testing, we determined whether excess
reimbursements received by a center sponsored by Wildwood had been properly serviced.
 We also tested compliance with OMB Circular A-133. We conducted the overall review
during the period February through December 2000.

We conducted the audit in accordance with Government Auditing Standards.

METHODOLOGY

We reviewed FNS, SA, and Wildwood records at their respective locations in or near
Denver, Colorado. We interviewed SA personnel and obtained spreadsheets from the
Office of Inspector General – Investigations. Those spreadsheets contained data on the
meals that should not have been reimbursed, broken down by child and by month. The
spreadsheets also showed the total overclaims based on the applicable reimbursement
rates published in the Federal Register.




2
    7 CFR 226.14(c).
William E. Ludwig                                                                                          3




FINDINGS

Finding No. 1

FNS was not reimbursed for the full amount of the overclaims by one of Wildwood’s
centers. Although the SA had recovered over $70,000 for the most recent 18-month
period, the overclaims included earlier periods not included in the SA’s billing. The
period billed appeared to be based on the period covered by a legal action initiated by
the State; however, there was no documented administrative determination or waiver
from FNS covering the full period of the overclaim. As a result, a determination had not
been made on Wildwood’s and the SA’s potential liability of approximately $27,4843 in
overpayments occurring beyond the 18-month period billed by the SA.

One of the centers that Wildwood sponsored overstated claims to Wildwood to increase
its Federally funded meal subsidies. The center’s owner/operator admitted that she
overstated the number of meals served to children. The overbilled amounts included
overclaims for periods after the children had left the centers. The period covered by the
deliberate overclaims ran from December 1995 to April 1998. As a sponsor of centers,
Wildwood had final administrative and financial responsibility for all facilities under its
jurisdiction.4

On November 13, 1998, the SA sent a memo to Wildwood confirming an agreement
that Wildwood would submit revised claims for the center for FYs 1997 and 1998. The
SA advised us that Wildwood had repaid $70,404 for the most recent 18 months ending
March 1998. SA officials said that period was selected based on advice of the State’s
attorney. Since the overstated claims extended back to at least December 1995, there
was a period of 10 months where the overclaimed Federal funds were not recovered,
and for which a potential claim exists against Wildwood or the SA.

Recommendation No. 1

Require the SA to establish claims against the sponsor for the full amount of the loss,
repay FNS, or submit documentation to allow FNS to determine if recovery can be
waived.

FNS Response

The written response to the draft report (see exhibit B) showed FNS would bill the SA
for the additional $27,484 in overpayments made to the sponsor. FNS would also offer
the SA the opportunity to submit documentation to FNS in support of an adjustment or
waiver of this amount.



3
    The calculation did not reflect any payments received by the center for cash-in-lieu of commodities.
4
    7 CFR 226.16(c).
William E. Ludwig                                                                                                         4


OIG Position

In order for us to consider the management decision for this recommendation, we need
to receive evidence showing FNS has billed the SA for the overpayments made to the
sponsor.

Finding No. 2

Wildwood’s required audit by an independent public accountant did not cover all Federal
funds and was not conducted within the specified period. The SA advised that due to
lack of funding, not all of Wildwood’s agreements were contracted for audit and there
was a problem obtaining the current audit because Wildwood and the SA could not
agree on whom would pay the cost of the audit. As a result, there was reduced
assurance that Federal funds were expended properly.

The OMB Circular A-133 audits provided for Wildwood for the year ending
September 30, 1998, did not include approximately $328,000 of Federal funding that
Wildwood received and subsequently passed through to it’s centers.5 The audit report
covering centers indicated that only the funds received by Wildwood for centers under a
Title XX agreement were covered. Neither the OMB Circular A-133 audit of the homes
nor the audit of the Title XX centers disclosed that some CACFP funds were covered
under another audit. In addition, the reports did not show the amount of Federal funds
not subject to audit. Further, the audit of the centers for the year ending September 30,
1999 (which was due June 30, 20006), was not available for our review as of July 31,
2000.

Recommendation No. 2

Coordinate with the SA to require Wildwood to include all Federal funds in the required
single audit and to obtain single audits within the specified timeframe. Instruct
Wildwood and the SA to obtain prior approval from FNS if Wildwood deviates from the
requirements of OMB Circular A-133.

FNS Response

FNS officials will instruct the SA to require that Wildwood obtains an applicable audit
within the timeframes specified in OMB Circular A-133 and the compliance supplement.
FNS officials will also ask the SA if it has received Wildwood’s audit of centers for the
year ending September 30, 1999. If not, the SA will be asked to determine if the audit
was conducted. If it has been conducted, Wildwood must furnish a copy to the SA. If it
has not been conducted, we will ask the SA to require Wildwood to obtain an
organization-wide audit meeting the requirements of OMB Circular A-133. The SA must
also ensure appropriate corrective action is taken by Wildwood regarding any findings of

5
  OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations, 200 (a) provides that Non-Federal
entities that expend $300,000 or more in a year in Federal awards shall have a single or program-specific audit conducted in
accordance with Circular A-133.
6
  OMB Circular A-133, 235 (c).
William E. Ludwig                                                                     5


the audit. Further, FNS officials will direct the SA to notify all CACFP institutions of the
requirement for an organization-wide audit.

OIG Position

In order for us to consider the management decision for this recommendation, we need
timeframes for completing the proposed actions.

CONCLUSIONS AND REQUIRED AGENCY ACTIONS

Your November 6, 2001, response to the draft report has been included in its entirety as
exhibit B of this report. In order for us to consider the management decisions, we will
need specific timeframes for completing the proposed actions and evidence showing the
billings for the unallowable costs. In accordance with Departmental Regulation 1720-1,
please furnish a reply within 60 days describing corrective actions taken or planned and
the timeframes for accomplishing final action. Please note that the regulation requires
management decisions to be reached on all findings and recommendations within 6
months from the date of report issuance.

We appreciate the assistance you and your staff provided to us during our review.

/s/


DENNIS J. GANNON
Regional Inspector General
  for Audit
William E. Ludwig                                                       6



EXHIBIT A – SUMMARY OF MONETARY RESULTS


Finding
  No.                 Description             Amount          Category
   1    Liability for excess reimbursements   $27,484 Unsupported Costs -
        received by a center.                         Recovery Recommended
William E. Ludwig                              7




EXHIBIT B – FNS RESPONSE TO THE DRAFT REPORT
William E. Ludwig   8
